                            CLOSEOUT FOR M-97090025

        On 18 September 1997, a program director' brought a complainant's2 concerns to
OIG's attention. In a cover letter accompanying the complainant's revised renewal proposal3
and in a subsequent e-mail message to the program director, the complainant asserted that his
original renewal proposal4 had been "handled in an unfair and very unsatisfactory manner"
by individuals "who [were] not familiar with" the proposed field of study. The original
renewal proposal requested support for work initiated under the complainant's earlier NSF
award.' Specifically, the complainant questioned how the opinion of one ad hoc reviewer,
who had rated the original renewal proposal as "Poor," could have been used by a program
manager, the ~ubject,~ after that reviewer had written prejudicial comments about an ethnic
group to which the complainant and his students belonged. The complainant claimed that the
declination of his original renewal proposal was the consequence of an "inexperienced"
program manager (the subject) and of some ad hoc reviewers who were unfamiliar with the
field of study.

        The complainant provided comments in his cover letter about the six ad hoc reviews
of his original renewal proposal. With respect to the "Poor" review, he said that it was from
someone who was "biased," as evidenced by the negative remarks in one paragraph about an
ethnic group. Although the complainant acknowledged that the subject had written on the
"Poor" review that "[tlhe paragraph was not considered when making the decision," he
expressed surprised that any part of the review had been used at all.

        OIG interviewed the subject. She explained that when she arrived at NSF she
reviewed the program's overall direction and was concerned about its emphasis in the field of
study represented by the complainant's proposal. She said that the complainant's original
renewal proposal was in the first group of proposals she handled. A short time before the
subject made the decisions for this group of proposals, a Committee of Visitors' (COV)
report issued its findings about the program. It concluded that the program over emphasized
research represented by the complainant's field of study. It also stated that proposals in this
particular field of study could legitimately request funding from other NSF programs.

        The subject explained that the complainant's original renewal proposal was declined
for the following reasons: 1) the substantive concerns expressed in the "Very Good" review,
about which she agreed; 2) the COV's conclusion concerning the program's direction, about



                                     Footnotes Redacted




                                        Page 1 of 3
                                    CLOSEOUT FOR M-97090025

        which she also agreed; and 3) the tight budget. She said that she did not consider the
        negative comments made by the ad hoc reviewer who rated the complainant's renewal
        proposal as "Poor."

                The subject's diary note in the original renewal proposal jacket stated that: 1) she had
        told the complainant, a few weeks prior to the decision to decline his proposal, that it was
        borderline and the final decision was dependent on the budget; 2) after the, decision was made
        to decline the complainant's proposal, she had discussed the ethnic comments in the "Poor"
        review with him, explaining that they did not bias her decision; and 3) she had encouraged
        the complainant to rewrite and resubmit the proposal to another program. In addition, she
        noted that the complainant had called another program director7 to discuss his options for
        funding because his earlier award was closed and he was concerned about support for his
        graduate students. She noted that the other program director told the complainant that he
        could request a reconsideration and that he could apply for supplemental funding to support
        his project. The complainant's application for supplemental funding was declined and he did
        not request a reconsideration. The complainant submitted his revised renewal proposal to
        another NSF program as the subject had recommended. OIG found no evidence that the
        subject had used the negative comments in the "Poor" review to make her decision to decline
        the original renewal proposal.

               OIG reviewed the complainant's concerns about the evaluation of his original renewal
        proposal. Of the 10 proposals in the competition that included the complainant's original
        renewal proposal, 2 were renewal proposals, 1 was a conference proposal, and 7 were new
        proposals. Only one proposal, a new one, was funded from this group. OIG's review of the
        remaining ad hoc reviews for the original renewal proposal showed that three reviewers rated
        the complainant's proposal as "Excellent," and two others rated the proposal "Very Good"
        and "R," respectively. ("R" represented a split review: "Excellent" for the first half and "not
        fundable" for the second half of the proposal.) The complainant agreed with the "Excellent"
        reviews. He explained that the "Very G o o d review was from someone who did not
        understand the science in the proposal. He described the " R review as from someone who
        did not see the uniqueness of the second part of the proposal.

               The revised renewal proposal, which was substantially similar to the original renewal
        proposal, was also declined. Of the four ad hoc reviews, two rated the revised renewal
        proposal "Good," one rated it "Very Good," and one rated it between "Good" and "Very
        Good." The reviewers described the revised renewal proposal as unfocused and containing
        portions that were out of date. The reviewer who had rated the original renewal proposal as
    ,   "Poor" did not review the revised renewal proposal. OIG concluded there was no reason to
        suspect that the declination of the complainant's original renewal proposal had anything to
        do with either the subject's alleged lack of experience or some of the ad hoc reviewers'
                                                                                              0




7
                                           Footnote Redacted


                                                      Page 2 of 3
                            CLOSEOUT FOR M-97090025

alleged lack of familiarity with the field of study, especially given that the revised renewal
proposal, which was substantially similar to the original renewal proposal and managed by a
different program and program officer, received less favorable reviews and was also
declined.

       This case is closed and no further action will be taken.

cc: Staff Scientist, AIG-Oversight, Legal, IG




                                             Page 3 of 3
